Audit Report

Office of Community Oriented Policing
Services Grants Administered by the Nampa, Idaho Police Department

Report No. GR-60-04-007


May 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Nampa, Idaho Police Department (Nampa).  The purpose of the grants is to enhance community policing.  Between September 1, 1995, and August 1, 2002, Nampa was awarded a total of $2,035,706 to hire 23 new police officers, redeploy the equivalent of 14.6 existing full-time officers from administrative duties to community policing, and to purchase equipment.  

We reviewed Nampa's compliance with seven essential grant conditions and found weaknesses in three of the areas we tested:  local match requirements, reimbursement requests, and officer redeployment.  As a result, of the deficiencies identified below, we question $62,657 in grant funds received.1

Records were not maintained to show that the local match requirement was met.

	Funds were drawn down for a part-time position when the position was vacant, resulting in questioned costs of $27,302.

	Redeployment was not tracked for the equipment/technology portion of the MORE 98 grant, resulting in questioned costs of $35,355.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.
   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and the definition of questioned costs.